FINNEGAN

FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP
WWW.FINNEGAN.COM

D. DEL MONACO
202.408.4023
anthony.delmonaco@finnegan.com
ANTHONY

Via: Hand Delivery
August 24, 2020
Honorable Scott S. Harris
Clerk of Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543

Supreme Court, U.S.
FILED

AUG 2 if 2020
OFFICE OF THE CLERK

Re: United States v. Image Processing Technologies LLC, et al., No. 20-74
Dear Mr. Harris:
The above referenced petition for writ of certiorari in this case was filed on July 23, 2020
ligh 5 Garna,
iti—
and_placed on the docket on July 27, 2020. I am writing on,c13FLattale'xVer
11,-14lo advise the Court that the parties to the underlying proceeding (IPR2018-00529)
previously entered into a settlement agreement.
After the Federal Circuit (Appeal No. 20-1024) vacated and remanded the proceeding to
the Patent and Trademark Office, the parties notified the Patent Trial and Appeal Board of the
settlement on May 4, 2020. On the same day, the Board issued a General Order in
IPR2018-00529 holding the matter in abeyance due to the Arthrex decision. On June 9, 2020, the
Board invited the parties to file a motion to terminate the proceeding. The parties filed a joint
motion to terminate the proceeding on June 16, 2020, although the Board has not yet acted on
that motion.
In view of the parties' settlement and the joint motion to terminate the underlying IPR
proceeding, see Petition at 25 n.2, Respondent High 5 Games does not intend to file a response to
the petition for a writ of certiorari unless one is requested by the Court.
I am not presently a member of the Bar of this Court, so I submit this letter in paper form.
Sincerely,
/s/ Anthony D. Del Monaco
Anthony D. Del Monaco
FINNEGAN, HENDERSON, FARABOW,
GARRETT & DUNNER, LLP
901 New York Ave. NW
Washington, DC 20001-4413
Attorney for High 5 Games, LLC
CC: Jeffrey B. Wall, counsel for petitioner

RECEVLD
SEP - 2 `;'irl
OFFICE OF THE C.[ ERK
SUPREME COUR U.S.

901 NEW YORK AVENUE, NW I WASHINGTON, DC 20001-4413
PHONE: +1 202 408 4000 I FAX: +1 202 408 4400

